TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        The Criminal Investigation Division
                           Can Take Steps to Ensure Its
                       Seizure Opportunities Are Maximized



                                           June 18, 2010

                              Reference Number: 2010-30-058




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document..



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


THE CRIMINAL INVESTIGATION                            years. In addition, there was a significant
DIVISION CAN TAKE STEPS TO ENSURE                     disparity in the number of assets seized among
ITS SEIZURE OPPORTUNITIES ARE                         the field offices.
MAXIMIZED                                             TIGTA’s analyses of the CI Division’s
                                                      management information system data indicated
                                                      that the CI Division may have missed some
Highlights                                            seizure opportunities. TIGTA analyzed a
                                                      sample of investigations with money laundering
Final Report issued on June 18, 2010                  or bank structuring violations and found that
                                                      requests to pursue seizure were made in only
Highlights of Reference Number: 2010-30-058           34 percent of the investigations with the
to the Internal Revenue Service Chief, Criminal       percentage of requests varying significantly
Investigation.                                        among field offices.
IMPACT ON TAXPAYERS                                   While the CI Division may have missed some
                                                      seizure opportunities, its Asset Forfeiture
The use of asset forfeiture has become one of         Program is respected by outside stakeholders
the most important tools that Federal law             and, when compared to other Federal agencies,
enforcement can employ against criminals, such        its Program appears to be productive.
as drug dealers and white-collar criminals. Law
enforcement officers believe that the effective       WHAT TIGTA RECOMMENDED
use of forfeiture laws can result in a decrease in
criminal activity. Our review determined that the     TIGTA recommended that the Chief, CI Division,
Criminal Investigation (CI) Division can take         require contractor employees to review the CI
steps to ensure its seizure opportunities are         Division’s management information system
maximized. The use of seizure and the ultimate        reports to identify recently initiated narcotics and
forfeiture of assets deprive individuals, who         illegal source investigations where there is no
knowingly violate the nation’s tax laws, of their     corresponding seizure investigative activity and
ill-gotten gains.                                     proactively engage the special agents in
                                                      discussions regarding the identification of
WHY TIGTA DID THE AUDIT                               forfeitable assets. TIGTA also recommended
                                                      that the Chief, CI Division, require contractor
The CI Division uses its asset seizure and            employees to periodically contact special agents
forfeiture authority as a tool for combating          to determine the status of the seizure and offer
unlawful activities designed to evade taxes. The      additional assistance. In addition, TIGTA
overall objective of this review was to evaluate      recommended that the Chief, CI Division,
whether the CI Division adequately considered         conduct an internal study of narcotics and illegal
the seizure of assets during its illegal source and   source investigations, where the seizure of
narcotics investigations.                             assets was not pursued, to determine if seizure
WHAT TIGTA FOUND                                      opportunities were missed.

There are opportunities for the CI Division to        CI Division officials agreed with four of the five
improve its Asset Forfeiture Program. During          recommendations and disagreed with one. The
Fiscal Year 2009, the CI Division seized just         CI Division did not agree with conducting an
more than 1,600 assets, which is a 13 percent         internal study but plans to ensure the
decline from the previous year and a 28 percent       appropriate management reviews are being
decline from the 5-year high in Fiscal Year 2007.     performed. However, because TIGTA is
The decline in the number of assets seized can        precluded from reviewing case file information
be partly attributed to the decrease in the           due to grand jury restrictions, TIGTA believes
number of illegal source and narcotics                the CI Division would benefit from conducting
investigations initiated during that period and the   this review because it would determine the
loss of experienced special agents in recent          extent of the issue and provide ideas for
                                                      improvement.
                                                DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                June 18, 2010


 MEMORANDUM FOR CHIEF, CRIMINAL INVESTIGATION


 FROM:                    (for) Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – The Criminal Investigation Division Can
                                 Take Steps to Ensure Its Seizure Opportunities Are Maximized
                                 (Audit # 200930026)

 This report presents the results of our review to evaluate whether the Criminal Investigation
 Division adequately considered the seizure of assets during its illegal source 1 and narcotics
 investigations. This audit was included in our Fiscal Year 2010 Annual Audit Plan and
 addresses the major management challenge area of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (202) 622-8510.




 1
     See Appendix IV for a glossary of terms.
                                The Criminal Investigation Division Can Take Steps
                                to Ensure Its Seizure Opportunities Are Maximized




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Number of Assets Seized Has Declined in Recent Years......................Page 4
          Seizure Opportunities May Have Been Missed ............................................Page 8
                    Recommendations 1 and 2: ..............................................Page 13

                    Recommendations 3 and 4: ..............................................Page 14

                    Recommendation 5:........................................................Page 15

          External Stakeholders Generally Praise the Criminal Investigation
          Division’s Asset Forfeiture Program ............................................................Page 15

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 17
          Appendix II – Major Contributors to This Report ........................................Page 19
          Appendix III – Report Distribution List .......................................................Page 20
          Appendix IV – Glossary of Terms................................................................Page 21
          Appendix V – Management’s Response to the Draft Report .......................Page 23
         The Criminal Investigation Division Can Take Steps
         to Ensure Its Seizure Opportunities Are Maximized




                   Abbreviations

AFC          Asset Forfeiture Coordinator
AUSA         Assistant United States Attorney
CI           Criminal Investigation
CIMIS        Criminal Investigation Management Information System
FY           Fiscal Year
IRS          Internal Revenue Service
SAR          Suspicious Activity Report
SIA          Seizure Investigation Activity
TEOAF        Treasury Executive Office for Asset Forfeiture
U.S.C.       United States Code
                             The Criminal Investigation Division Can Take Steps
                             to Ensure Its Seizure Opportunities Are Maximized




                                              Background

President Obama recently announced the formation of a
Financial Fraud Enforcement Task Force 1 to strengthen                         The use of asset forfeiture has
efforts to combat financial crime. The objectives of the task                     become one of the most
                                                                              important tools that Federal law
force include ensuring just and effective punishment for
                                                                              enforcement can employ against
those who perpetrate financial crimes and recovering                                     criminals.
proceeds for victims. The use of asset forfeiture is one of
the tools available to law enforcement in accomplishing
these objectives.
Criminal and civil forfeiture is essential to ensure that crime does not pay. The use of asset
forfeiture has become one of the most important tools that Federal law enforcement can employ
against criminals, such as drug dealers and white-collar criminals. Law enforcement officers
believe that the effective use of forfeiture laws can result in a decrease in criminal activity.
The Criminal Investigation (CI) Division’s primary mission is to serve the American public by
investigating potential criminal violations of the Internal Revenue Code 2 and related financial
crimes in a manner that fosters confidence in the tax system and compliance with the law. The
CI Division is the only Federal agency that can investigate potential criminal violations of the
Internal Revenue Code. The CI Division’s special agents’ investigative jurisdiction includes tax,
money laundering, and Bank Secrecy Act laws.
The CI Division uses its asset seizure and forfeiture authority as a tool for combating financial
crimes and/or unlawful activities designed to evade taxes. Seizure is the confiscating of a
person’s property by a legal process; whereas, forfeiture is when the Government assumes
ownership of the seized asset. The CI Division’s Fiscal Year (FY) 2009 operational priorities
included continuing to actively use its asset forfeiture authority to further its enforcement goals
and strengthening Bank Secrecy Act compliance efforts by making every effort to identify assets
subject to forfeiture. 3
Most of the CI Division’s seizures are the result of United States Code (U.S.C.) Titles 18 and 31,
which deal with money laundering and currency investigations. The revenue from assets seized
that are eventually forfeited is deposited into the Treasury Forfeiture Fund. The CI Division can

1
  Led by the Department of Justice, this task force will work with State and local partners to investigate and
prosecute significant financial crimes and address, among other things, discrimination in the lending and financial
markets.
2
  See Appendix IV for a glossary of terms.
3
  The CI Division’s FY 2010 operational priorities include utilizing asset forfeiture authority to further enforcement
goals and take the profit away from criminals.
                                                                                                               Page 1
                             The Criminal Investigation Division Can Take Steps
                             to Ensure Its Seizure Opportunities Are Maximized



request to use these funds to finance future law enforcement initiatives (e.g., the hiring of
contractor employees to assist with the Asset Forfeiture Program). The CI Division also has the
authority to seize and forfeit assets for U.S.C. Title 26 tax violations; however, few seizures are
made on these violations. This occurs because only property used, or intended to be used, to
violate Internal Revenue laws can be forfeited. 4
The CI Division’s Warrants and Forfeiture section administers the Asset Forfeiture Program.
Some of the section’s responsibilities include 1) tracking assets seized for purposes of evidence
and/or forfeiture utilizing the Asset Forfeiture Tracking and Retrieval System, 2) providing
training to the Asset Forfeiture Coordinators (AFC) and Asset Forfeiture Specialists on current
forfeiture policies and criminal statutes, and 3) consistently and strategically applying forfeiture
to combat and put an end to criminal activities. Personnel from the Warrants and Forfeiture
section also send periodic reports to the Treasury Executive Office for Asset Forfeiture
(TEOAF).
Each of the Special Agents in Charge of the 26 field offices 5 oversees the performance of their
office’s Asset Forfeiture Program. The special agent of an investigation coordinates the seizure
and forfeiture activity with input from the Supervisory Special Agent and the AFC. Each field
office has at least one AFC who is the local expert in the seizure and forfeiture process. The
AFC provides the necessary guidance and support to ensure that proper procedures are followed,
administrative reporting is completed, and special circumstances are addressed and resolved.
The AFC also ensures that proper and timely pre-seizure planning occurs.
The CI Division is currently hiring contractor employees to directly support work on asset
forfeiture investigations. During FY 2009, the CI Division added contractor employee positions
to the Washington, D.C.; Miami, Florida; and New York, New York, field offices. During
FY 2010, the CI Division plans to provide additional contractor positions and will start by
placing contractor employees in large field offices (i.e., those with two Assistant Special Agents
in Charge.) According to the CI Division, the remaining field offices will receive contractor
employee positions later in FY 2010 or during FY 2011. CI Division executives expect these
contractor employees will free up special agents to pursue additional investigations.
We encountered a significant scope limitation that precluded us from fully addressing our audit
objective of evaluating whether the CI Division adequately considered the seizure of assets
during its illegal source and narcotics investigations. We selected a sample of investigations
designated as illegal source and narcotics. The majority of these investigations were classified as


4
  This is in contrast to seizures made for U.S.C. Titles 18 and 31 violations where property derived traceable to a
violation can be seized. For instance, real estate acquired with laundered funds can be seized.
5
  Offices within the four CI Division geographical areas throughout the country with boundaries that range from a
portion of a single State to inter-State areas. Each field office has a Special Agent in Charge to direct, monitor, and
coordinate the criminal investigation activities within that office’s area of responsibility. Several post-of-duty cities
are located within each field office.
                                                                                                                 Page 2
                        The Criminal Investigation Division Can Take Steps
                        to Ensure Its Seizure Opportunities Are Maximized



grand jury and thus were restricted from our review. As part of the grand jury procedures
governing disclosure of information, the CI Division engaged the Criminal Tax Counsel to
determine what information, if any, from the cases we requested could be made available to us.
We also engaged the Assistant United States Attorneys (AUSA). CI Division management
advised that we could obtain only information that had been made publically available by the
courts (e.g., indictment, sentencing document, etc.). These documents did not contain
information that would help us evaluate whether or not the CI Division considered seizure
activity.
The CI Division and the Treasury Inspector General for Tax Administration management
cooperated on this matter; however, due to the aforementioned process and circumstances
beyond either party’s control, we did not receive access to the investigative case files for those
investigations classified as grand jury.
This review was performed at the CI Division’s National Headquarters in Washington, D.C., and
the Oakland, California; St. Paul, Minnesota; Nashville, Tennessee; and Houston, Texas, field
offices. We also contacted United States Attorney Office officials of the Northern District of
California (San Francisco, California); Eastern District of California (Sacramento, California);
Middle District of Tennessee (Nashville, Tennessee); Western District of Kentucky
(Louisville, Kentucky); and the Southern District of Texas (Houston, Texas). In addition, we
met with officials from the TEOAF located in Washington, D.C.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                              Page 3
                            The Criminal Investigation Division Can Take Steps
                            to Ensure Its Seizure Opportunities Are Maximized




                                       Results of Review

The Number of Assets Seized Has Declined in Recent Years
In the past 2 fiscal years, the CI Division has seen a decline in the number of seized assets. Even
though there has been a decline, outside stakeholders view the CI Division’s Asset Forfeiture
Program favorably. When compared with other Federal agencies having more resources, the
CI Division’s Asset Forfeiture Program appears to be productive (as discussed later in the
report).
Since the beginning of FY 2005, the CI Division has seized almost $1.5 billion in assets and
forfeited approximately $900 million in assets. During FY 2009, the CI Division seized just
more than 1,600 assets, which is a 13 percent decline from the previous year and a 28 percent
decline from the 5-year high in FY 2007. The total dollar amount of the assets seized during
FY 2009 increased almost 79 percent from the previous year. However, the total dollar amount
tends to be skewed because one or two seizures could distort the total. For example, during
FY 2009, 1 office had a currency seizure valued at $175 million while another office had a
seizure of gold bars valued at nearly $100 million. In addition, during FY 2009, the CI Division
made 625 reverse asset sharing requests. 6 This volume is 23 percent lower than the previous
year and nearly one-half of the requests made during FY 2005.
These recent decreases could be indicative of a declining Asset Forfeiture Program that could
result in the loss of monies deposited into the Treasury Forfeiture Fund that are available to
finance future law enforcement initiatives. Figure 1 shows the number and dollar amounts of
assets seized and reverse asset sharing requests during FYs 2005 through 2009.




6
  The CI Division routinely participates in joint investigations where a Department of Justice agency, such as the
Drug Enforcement Administration, is the lead seizing agency. The lead seizing agency processes the seizure from
the forfeiture of funds to disposition. The CI Division can request an equitable share of any forfeited property from
its participation in these investigations. This procedure is known as reverse asset sharing. The Department of
Justice Asset Forfeiture Fund policy allows a maximum asset sharing amount of 80 percent.
                                                                                                              Page 4
                              The Criminal Investigation Division Can Take Steps
                              to Ensure Its Seizure Opportunities Are Maximized



                        Figure 1: The Number and Dollars of Assets Seized
                               and Reverse Asset Sharing Requests

                                  FY 2005             FY 2006              FY 2007           FY 2008         FY 2009


 Number of Assets Seized                 1,978             2,156                2,268               1,872           1,624


 Dollar Amount of Assets          $241,838,451    $225,820,459         $315,033,520          $242,622,243    $434,150,746
 Seized


 Number of Reverse Asset                 1,203             1,061                     993               813             625
 Sharing Requests


 Dollar Amount of Reverse         $375,638,415    $235,667,335         $474,109,631          $225,016,304    $356,523,491
 Asset Sharing Requests


 Source: CI Division’s Warrants and Forfeiture section.

  The recent decline in the number of seized assets and reverse asset sharing requests can be partly
  attributed to the decrease in the number of illegal source and narcotics investigations initiated by
  the CI Division since FY 2007. Illegal source and narcotics investigations are far more likely to
  contain seizure activity than legal source tax investigations, which are a larger part of the
  CI Division’s workload. Figure 2 illustrates that the total number of illegal source and narcotics
  investigation initiations decreased nearly 13 percent from FYs 2007 to 2008 before rebounding
  nearly 8 percent in FY 2009.
         Figure 2: Numbers of Illegal Source and Narcotics Investigations Initiated

         Types of Investigation             FY 2005        FY 2006            FY 2007        FY 2008         FY 2009

 Illegal Source                                  1,632             1,686             1,731        1,441            1,634

 Narcotics                                        944               697                816             777           753

 Total                                           2,576             2,383             2,547        2,218            2,387

Source: Internal Revenue Service (IRS) Data Book (Publication 55B) for FY 2005 and the Criminal Investigation
Management Information System (CIMIS) Report INV002 (Summary by Program Area) for FYs 2006 through 2009.




                                                                                                                Page 5
                            The Criminal Investigation Division Can Take Steps
                            to Ensure Its Seizure Opportunities Are Maximized



Another factor that may explain the recent declines in the CI Division’s Asset Forfeiture
Program is the loss of experienced special agents. As our previous report on the CI Division’s
statistical trends illustrated, 7 the number of field special
agents declined almost 7 percent in FY 2008 from the               During FY 2009, the number of
previous year and was at its lowest level in the past           experienced field agents continued
30 years. This trend continued in FY 2009 as the number           to decline. New agents are less
of field special agents declined nearly 2 percent. The new        likely to work illegal source and
inexperienced agents hired to offset the loss of the more          narcotics investigations which
                                                                    could involve seizure activity.
experienced agents are generally assigned legal source tax
investigations during their first few years of employment
with the CI Division because these investigations fit the core mission of the CI Division.

A small number of field offices seized close to one-half of the assets during the
last 3 fiscal years
Our analysis of documents provided by the Warrants and Forfeiture section showed there is a
disparity in the number of assets seized between the field offices. While the CI Division seized
more than 5,700 assets during FYs 2007 through 2009, almost one-half of those asset seizures
(2,837) were made by just 7 of the 26 field offices. 8 This includes offices that are relatively
smaller, 9 such as the Tampa, Florida; Charlotte, North Carolina; and, Nashville, Tennessee, field
offices. We also noted a similar disparity among the field offices with respect to the number of
reverse asset sharing requests made. During FYs 2007 through 2009, the CI Division made
2,431 reverse asset sharing requests. More than one-half of these requests (1,323) were made by
7 of the 26 field offices. A number of field offices with a smaller amount of seized assets (as
compared to other field offices) also had a small amount of reverse asset sharing requests. The
results suggest that there are opportunities for improving the Asset Forfeiture Programs in these
offices. Figure 3 reflects the total numbers of asset seizures and reverse asset sharing requests
made by each CI Division field office during FYs 2007 through 2009.




7
  Statistical Portrayal of the Criminal Investigation Division’s Enforcement Activities for Fiscal Years 2000
Through 2008 (Reference Number 2009-30-053, dated March 26, 2009).
8
  Several office consolidations occurred during the 3-year period reviewed. For purposes of our analysis, we
compared the 26 field offices as presently composed.
9
  We considered those field offices with one Assistant Special Agent in Charge to be smaller as opposed to those
offices with two Assistant Special Agents in Charge. The field offices with one Assistant Special Agent in Charge
would have fewer special agents.
                                                                                                           Page 6
                                                                 The Criminal Investigation Division Can Take Steps
                                                                 to Ensure Its Seizure Opportunities Are Maximized



           Figure 3: Total Numbers of Assets Seized and Reverse Sharing Request
                                       by Field Office
                                                                                                      (FYs 2007 through 2009 combined)

                        600


                        500


                        400
        Total Numbers




                        300


                        200


                        100


                          0
                                       New York




                                                                                          Nashville




                                                                                                                                       Miami




                                                                                                                                                                                                                Newark




                                                                                                                                                                                                                                                 Atlanta




                                                                                                                                                                                                                                                                                                            Houston
                                                                                                               Oakland
                                                                                                                         San Antonio




                                                                                                                                                                                                       Denver




                                                                                                                                                                                                                                                                                      Las Vegas
                                                                                                                                                                                         Los Angeles




                                                                                                                                                                                                                                                                                                                      New Orleans
                                                                                                                                                                                                                                                                                                  Phoenix
                                                                                                                                                                                                                         St. Paul
                                                                              Charlotte




                                                                                                                                               Cincinnati
                                                                                                                                                            Chicago




                                                                                                                                                                                                                                    Pittsburgh


                                                                                                                                                                                                                                                           Philadelphia
                                                                                                                                                                      Boston
                                                  Seattle




                                                                                                       Tampa




                                                                                                                                                                               Detroit
                              Dallas




                                                                                                                                                                                                                                                                          St. Louis
                                                            Washington D.C.




                                                                                                                                                            Field Office


                                          Total Number of Assets Seized                                                                                     Total Number of Reverse Asset Sharing Requests

Source: CI Division’s Warrants and Forfeiture section.

Through our discussions with CI Division management, Criminal Tax Counsel, and the
Director, TEOAF, we obtained their perspectives on why there would be disparity in seizure
activity among the field offices. Their explanations included:
    •                   The AUSAs in some judicial districts may be reluctant, as opposed to others who are very
                        aggressive, in their approach to pursuing the seizure of assets during criminal
                        investigations. The five Asset Forfeiture AUSAs we spoke to during this audit supported
                        the use of asset forfeiture in criminal investigations.
    •                   Some field offices have always placed a higher emphasis on the importance of the seizure
                        of assets during criminal investigations.

                                                                                                                                                                                                                                                                                                            Page 7
                            The Criminal Investigation Division Can Take Steps
                            to Ensure Its Seizure Opportunities Are Maximized



     •   Some field offices may work a higher percentage of legal source tax cases, thus limiting
         their seizure opportunities.
In addition, some of the field offices have created Suspicious Activity Report (SAR) Task
Forces 10 which have enhanced their Asset Forfeiture Programs. For instance, 53 of the
296 assets seized by the Seattle field office during FY 2009 can be attributed to an SAR Task
Force.

Seizure Opportunities May Have Been Missed
The Internal Revenue Manual defines that when asset forfeiture is anticipated in a criminal
investigation, a special agent must obtain seizure investigation activity (SIA) authority. An SIA
must be approved by the Special Agent in Charge for any seizure investigation, in which the
CI Division participates, even if they are not the lead seizing agency. The request and approval
process is completed through the CIMIS when seizure activity is anticipated in the primary
investigation or the subject investigation.
We analyzed data from the CIMIS and identified 4,754 illegal source and narcotics subject
investigations with money laundering or bank structuring violations. 11 Our analysis showed that
in 1,635 (34 percent) investigations, the special agent requested approval to pursue the seizure of
assets. As of May 2009, the CI Division had executed a seizure in 23012 (14 percent) of the
1,635 investigations. Figure 4 details the number of illegal source and narcotics investigations
where the seizure of assets was pursued and subsequently executed.




10
   The CI Division and the Department of Justice created SAR Task Forces in 2006 to pursue SAR initiated
investigations. These Task Forces are typically composed of CI Division Special Agents, State and local law
enforcement personnel, and Federal prosecutors who are devoted full time to the review of the SARs. They
specifically investigate possible Bank Secrecy Act violations that have the potential for seizures and forfeitures.
According to the CI Division’s National SAR Coordinator, there are currently 19 SAR Task Forces in various stages
of development.
11
   For our testing, we selected subject investigations that contained money laundering violations (18 U.S.C.
Sections 1956 and 1957) or a structuring violation (31 U.S.C. Section 5324) in the “Under Investigation,”
“Recommended for Prosecution Violation,” or “Indictment Violation” fields in the CIMIS.
12
   The CI Division coordinates with other Federal and State law enforcement agencies on many investigations.
These 1,635 investigations can also include seizures that were executed by other agencies.
                                                                                                           Page 8
                           The Criminal Investigation Division Can Take Steps
                           to Ensure Its Seizure Opportunities Are Maximized



                   Figure 4: Numbers of SIAs and Seizure Executions on
                    Illegal Source and Narcotics Subject Investigations
                   With Money Laundering or Bank Structuring Violations


                     Number of Subject        Number of SIAs      Percentage of      Number Where
                   Investigations Initiated     Requested        SIAs Requested   Seizure Was Executed


  Illegal Source            2,834                   775                27%                157

  Narcotics                 1,920                   860                45%                73

  Totals                    4,754                 1,635                34%                230

Source: Our analysis of the CIMIS data for FY 2007 through May 31, 2009.

In addition, there were also 2,314 primary investigations initiated that were still in the primary
investigation phase at the time of our analysis. A total of 856 (37 percent) contained requests for
approval to pursue the seizure of assets. A seizure was executed in 154 of those investigations.
When distinguished by field office, the disparity in the percentage of SIAs requested was
significant. For example, 1 field office requested SIAs in just more than 64 percent of the
investigations with a money laundering or structuring violation; whereas, another field office
requested SIAs in just more than 7 percent of the investigations containing these same violations.
There are valid reasons why the seizure of assets would not be pursued in every investigation
with money laundering or bank structuring violations. For example, there may not have been
any assets to seize or the investigation may have involved a related party that did not have
custody of the assets. However, these disparities suggest that the CI Division might have missed
some opportunities. During our audit, we attempted to review a sample of narcotics and illegal
source investigations that did not have seizure activity to determine if there was a systemic issue
with not pursuing the seizure of assets in these investigations. Due to grand jury restrictions, we
were unable to review the investigations and were limited to discussions with CI Division
personnel.
We believe the CI Division can take the following steps to ensure its seizure opportunities are
maximized in the future:
    1) Implement procedures to identify and monitor seizure opportunities.
    2) Conduct an internal study to determine if and why the seizure of assets are not being
       pursued.
    3) Ensure special agents are adequately trained.


                                                                                                 Page 9
                               The Criminal Investigation Division Can Take Steps
                               to Ensure Its Seizure Opportunities Are Maximized



Implement procedures to identify and monitor seizure opportunities
The CI Division should ensure that the seizure of assets is addressed during its investigations.
The Warrants and Forfeiture section indicated that the AFCs are directed to proactively contact
special agents and look for seizure opportunities.
We interviewed four AFCs regarding procedures
utilized at three 13 field offices. All four AFCs           The CI Division contractor
indicated that they do not proactively approach            employees are expected to
                                                        provide expertise in monitoring
special agents conducting investigations to
                                                            seizure opportunities and
determine if there is seizure potential and if their      identifying forfeitable assets.
assistance is needed. They often do not get
involved until contacted by the special agent or the
Supervisory Special Agent when assets with seizure potential are identified. In one field office,
management indicated that even though they thought their AFCs were meeting their
expectations, they were not as proactive as desired. This situation could be because each of the
AFCs we interviewed has additional duties that include working their own cases, recruiting, or
serving in another coordination role which may limit their ability to be proactive.
The CI Division has plans for each field office to eventually receive a contractor employee that
will directly support work on seizure investigations. The objective for using contractor
employees is to increase the use of seizures in those cases where its potential is clearly identified
and to maximize the impact of forfeiture in criminal investigations conducted by CI Division
personnel. One of the requirements for this position is to provide expertise in reviewing
financial records to identify forfeitable assets.
The field offices can utilize contractor employees to help identify and monitor seizure
opportunities. For example, one CIMIS report lists those criminal investigations in a special
agent’s inventory that do not have a corresponding SIA. This type of information could be used
by contractor employees to identify those investigations that are more likely to have seizure
potential, such as those with money laundering violations, and to proactively engage the special
agents in discussions regarding the identification of forfeitable assets. The implementation of
these procedures can not only help identify forfeitable assets but can also be used as a valuable
tool for contractor employees to help educate those agents that are not familiar with asset
forfeiture.
The CI Division can also optimize contractor employee positions by implementing procedures to
monitor those investigations where an SIA has been approved but where a seizure has not yet
been executed. Results showed 1,127 of the 1,633 illegal source and narcotics subject
investigations that we analyzed in the CIMIS had an approved SIA where there was no



13
     We did not meet with the AFC in the St. Paul field office due to time constraints.
                                                                                             Page 10
                           The Criminal Investigation Division Can Take Steps
                           to Ensure Its Seizure Opportunities Are Maximized



associated seizure execution by the CI Division. 14 These 1,127 investigations had been in that
status for an average of 421 calendar days, ranging from a low of 2 calendar days to a high of
2,445 calendar days. The high number of investigations in a pending status could be an
indication of investigations where the seizure of assets had been overlooked. We interviewed the
AFCs who indicated they monitor the status of SIAs, although each AFC uses a different
method. For example, one AFC maintains a monthly spreadsheet that is sent to each of the
Supervisory Special Agents to obtain any changes in the status of the seizure investigations.
Two AFCs in another office rely on informal discussions with the special agents.
We believe the CI Division can take steps to ensure criminal investigations with seizure activity
are periodically monitored. For instance, they can utilize information in the CIMIS to identify
those SIAs where a seizure has not been executed by the CI Division. This information can be
used by the contractor employees to contact the special agents to determine the status of the
seizure and offer additional assistance.

Conduct an internal study to determine if and why the seizure of assets are not
being pursued
The CI Division periodically conducts internal reviews (called a Review and Program
Evaluation) of each of its field offices. These reviews included an evaluation of the office’s
Asset Forfeiture Program. We reviewed reports from 11 recent internal reviews15 and
determined the CI Division shared our concerns about seizure opportunities not being maximized
in some offices. The reports included recommendations designed to ensure that the seizure of
assets is addressed and considered during investigations. Some examples of the
recommendations included ensuring that office management explore the seizure of assets during
case, workload, and operational reviews and ensuring that special agents are adequately trained
in asset forfeiture matters.
Due to grand jury secrecy, those reviews, like this audit, were primarily based on statistical
analyses and discussions with CI Division and AUSA personnel. The CI Division needs to
determine if seizure opportunities are being missed to ensure that criminals are deprived of their
ill-gotten gains. An independent review of investigations can be helpful in determining if seizure
opportunities were missed and could help identify specific areas of improvement.

Ensure special agents are adequately trained
The number of special agents reached a 30-year low during FY 2008. The CI Division has had
to hire many new agents in recent years to make up for the attrition of their more experienced
agents. Highly trained and experienced special agents are needed to expose large, complex


14
   Some of these investigations could have had seizures executed by other agencies. We could not determine from
our analysis if that had occurred.
15
   The internal reviews were conducted by CI Division personnel from May 2008 through August 2009.
                                                                                                        Page 11
                            The Criminal Investigation Division Can Take Steps
                            to Ensure Its Seizure Opportunities Are Maximized



money laundering schemes and to undertake asset forfeiture investigations. A Warrants and
Forfeiture section analyst indicated that one of the reasons why some field offices may not have
as productive an Asset Forfeiture Program has been the “great loss in manpower” in recent years.
In addition, one of the field offices responded in an internal report that its large population of
relatively inexperienced agents is one reason that has prevented its Asset Forfeiture Program
from flourishing in recent years. This opinion could be attributed to the belief that newer agents
do not have the knowledge and experience to identify when a seizure is appropriate.
When hired, special agents are generally provided basic asset forfeiture training at the Federal
Law Enforcement Training Center. These newer agents are then assigned to work on legal
source tax investigations which do not provide them with the opportunity to get involved with a
seizure. Several Supervisory Special Agents and AFCs indicated that the asset forfeiture training
provided to newer agents is lost because they do not receive the opportunity to work on
investigations involving seizures until later in their careers. Several Supervisory Special Agents
and more experienced agents advised that the best way to learn about the seizure process is by
actually conducting one. To that effect, some Supervisory Special Agents try to have more
experienced agents collaborate with newer agents during the process of conducting a seizure to
provide this hands-on experience.
One way the CI Division can help ensure that
these agents are better prepared to undertake
asset forfeiture investigations is by requiring                Forty-five percent of special
                                                               agents interviewed indicated
that newer agents attend additional asset
                                                                 that an asset forfeiture
forfeiture training to supplement the training               presentation had not been made
provided at the Federal Law Enforcement                         within the past 12 months.
Training Center. One of the offices in our
review recently presented additional asset
forfeiture training 16 to special agents with 10 years of experience or less. The feedback provided
by the attending special agents was overwhelmingly positive. For example, one special agent
indicated that the training provided more information than what was presented at the Federal
Law Enforcement Training Center, while another now knows what to look for and whom to
contact with questions. A third agent wished the training was provided earlier in his career. The
Warrants and Forfeiture section indicated that they have encouraged field offices to provide
basic asset forfeiture training to newer special agents using funding from the Treasury Forfeiture
Fund.
Another method to ensure that special agents, including those that are more experienced, are
adequately trained in asset forfeiture matters is to have periodic presentations at group meetings.


16
  The Warrants and Forfeiture section offers additional training designed for special agents with less than 5 years of
experience. While not required, that training has been made available to each of the field offices and some have
requested the training.
                                                                                                            Page 12
                             The Criminal Investigation Division Can Take Steps
                             to Ensure Its Seizure Opportunities Are Maximized



CI Division management has previously recommended that field office management have the
AFCs make presentations at group meetings. We interviewed 42 17 special agents and 19 of them
could not recall if the AFC made a presentation at a group meeting or that a presentation had not
been made in the past 12 months. Asset forfeiture presentations at group meetings can be
beneficial for promoting the use of asset forfeiture and communicating new developments in the
asset forfeiture arena. For instance, changes in case law, such as the 2008 Supreme Court
decision (United States v. Santos), 18 could affect the ability to seize assets in some money
laundering investigations. Also, discussions during group meetings can educate special agents
regarding new methods being used by criminals to launder money (e.g., the criminal use of
electronic currency and web-based services). With the planned addition of contractor employees
to each field office, the CI Division can enhance the ability of the offices to ensure that special
agent groups receive periodic asset forfeiture presentations.

Recommendations
The Chief, CI, should:
Recommendation 1: Require contractor employees to review CIMIS reports to identify
recently initiated narcotics and illegal source investigations where there is no corresponding SIA.
Once these investigations are identified, the contractor employees should proactively engage the
special agents in discussions regarding the identification of forfeitable assets.
         Management’s Response: IRS management agreed with this recommendation. The
         CI Division recognized that management and oversight of SIA investigations are
         imperative to ensure that seizure opportunities are maximized. The CI Division will
         examine the creation of a structured oversight and coordination system with management
         and Financial Investigator IV contactor employees to monitor and more effectively
         maximize seizure opportunities on illegal source and narcotics investigations.
Recommendation 2: Require contractor employees to periodically contact special agents to
determine the status of the seizure and offer additional assistance.
         Management’s Response: IRS management agreed with this recommendation. The
         CI Division will examine the creation of a structured oversight and coordination system
         with management and Financial Investigator IV contractor employees that will
         encompass offering additional assistance to special agents with asset forfeiture cases in



17
   These results did not include those special agents we interviewed that had less than 1 year of experience.
18
   United States Supreme Court decision docket number 06-1005 issued on February 2, 2008. In the decision, the
Supreme Court ruled that a Federal money laundering statute that criminalizes certain uses of the “proceeds” of
criminal activities applies to transactions involving criminal profits, not gross receipts, when the criminal conduct at
issue is an unlicensed gambling business. This will affect the amounts that are forfeitable in those cases.
                                                                                                               Page 13
                        The Criminal Investigation Division Can Take Steps
                        to Ensure Its Seizure Opportunities Are Maximized



       an effort to effectively maximize seizure opportunities on illegal source and narcotics
       investigations.
Recommendation 3: Conduct an internal study, with the cooperation of the United States
Attorneys’ Offices, to determine if seizure opportunities are being missed. This study should
incorporate a review of a sample of narcotics and illegal source investigations where the seizure
of assets was not pursued to determine if assets with seizure potential were not identified.
       Management’s Response: IRS management disagreed with this recommendation.
       The CI Division indicated that as our findings and recommendations indicate a need for
       greater participation by the field office personnel in the seizure process, initiating an
       internal study is unnecessary. The CI Division will look forward and will ensure the
       appropriate management reviews are being performed and that discussions are being held
       between management and special agents when initiating narcotics and illegal source
       investigations to determine if there is asset seizure potential.
       Office of Audit Comment: While the CI Division indicated that it will ensure the
       appropriate management reviews are being performed and that discussions are being held
       between management and special agents, we still believe that steps should be taken to
       determine the extent of missed seizure opportunities. Because grand jury restrictions
       precluded the review of case file information, we could not determine the extent of any
       missed seizure opportunities. We believe it would be beneficial for the CI Division to
       conduct this internal study or implement procedures for a periodic independent review of
       investigations that did not have seizure activity. This evaluation could determine the
       reasons for cases without a seizure, the extent of the issue, and provide ideas for
       improving the Asset Forfeiture Program.
Recommendation 4: Require that each special agent receive additional asset forfeiture
training during their first 5 years to supplement the basic training received at the Federal Law
Enforcement Training Center.
       Management’s Response: IRS management agreed with the substance of this
       recommendation; however, they offered an alternative corrective action that we find to be
       satisfactory. The CI Division agreed that additional asset forfeiture training would be
       beneficial to the program. During Review and Program Evaluation reviews, the Warrants
       and Forfeiture section encourages the field office to conduct new agent basic asset
       forfeiture training.
       Currently, as part of the Asset Forfeiture Program, the Warrants and Forfeiture section,
       collaborates with the AFCs, Asset Forfeiture Specialists, and Financial Investigator IV
       contractor employees to develop training curricula, conduct the prescribed training
       courses, and maintain training records for new agent asset forfeiture training. The
       CI Division also coordinates training opportunities with other Federal agencies. The
       AFC facilitated training provides new agents that have less than 5 years tenure with

                                                                                           Page 14
                       The Criminal Investigation Division Can Take Steps
                       to Ensure Its Seizure Opportunities Are Maximized



       enough knowledge to consider seizure and forfeiture potential in their investigations. In
       addition, the Warrants and Forfeiture section is available to assist in new agent asset
       forfeiture training for field office special agents.
       The CI Division added that making delivery of additional asset forfeiture training to
       special agents during their first 5 years a requirement would have a significant budget
       impact. The Director, Operations Policy and Support, will further evaluate the need and
       the CI Division’s ability to implement this requirement as compared to continuing to
       provide the current additional training discussed in the prior paragraph.
Recommendation 5: Consider requiring the contractor employees in each field office make
periodic asset forfeiture presentations to each group of special agents.
       Management’s Response: IRS management agreed with this recommendation. The
       CI Division concurred that contractor employees and the AFC should make periodic asset
       forfeiture presentations to each group of special agents in the field offices. The AFCs
       will be directed to coordinate these presentations.

External Stakeholders Generally Praise the Criminal Investigation
Division’s Asset Forfeiture Program
During the audit, we met with the Director, TEOAF, to gain his perspective on the CI Division’s
Asset Forfeiture Program. The Director stated that the CI Division does a “remarkably good
job” with its Asset Forfeiture Program, especially when compared to other agencies with more
resources (e.g., the Federal Bureau of Investigation and the United States Immigration and
Customs Enforcement). The statistics support the assertion indicating that, despite fewer
resources, the CI Division’s Asset Forfeiture Program appears to be more productive than some
other agencies. Figure 5 shows the net amounts deposited into the Treasury Forfeiture Fund and
the Department of Justice’s Asset Forfeiture Fund by selected Federal agencies, as well as the
approximate total number of special agents employed by each.




                                                                                         Page 15
                            The Criminal Investigation Division Can Take Steps
                            to Ensure Its Seizure Opportunities Are Maximized



            Figure 5: Number of Special Agents and Net Amounts Deposited
              Into the Treasury and Department of Justice Forfeiture Funds

                                                 Approximate Number of               Amount Deposited Into
            Federal Agencies
                                                    Special Agents 19            Forfeiture Fund During FY 2009


IRS CI Division                                            2,700                            $274,738,332

Immigration and Customs Enforcement                    6,000 – 7,000                        $168,796,668

Federal Bureau of Investigation                            13,250                           $481,815,155

Drug Enforcement Administration                            5,200                            $264,902,357

Source: CI Division, TEOAF, Department of Justice Management Division, Drug Enforcement Administration, and
Federal Bureau of Investigation webpages.

According to the TEOAF’s Strategic Plan, Treasury Forfeiture Fund management measures the
performance of each agency’s Asset Forfeiture Program by the percentage of cash forfeitures
that are “high impact”—cash forfeitures equal to or greater than $100,000. The goal for all
Federal agencies that utilize the Treasury Forfeiture Fund is that 75 percent of all forfeited cash
should result from “high impact” forfeitures. The Director, TEOAF, stated the CI Division has
consistently met this goal.
We also discussed the CI Division’s Asset Forfeiture Program with five Asset Forfeiture AUSAs
to gain their perspective. The United States Attorneys’ Offices are responsible for the
prosecution of both criminal and civil actions against property used or acquired during illegal
activity. The AUSAs were complimentary of the CI Division’s Asset Forfeiture Program and the
quality of the forfeiture actions that were taken. One of the complimentary remarks noted in our
discussions was the quality of the forfeiture actions brought by the special agents, especially as
compared to other agencies. Another Asset Forfeiture AUSA indicated that the CI Division is
the premier financial investigative agency, while another noted how indispensible the agents are
in financial matters.




19
  Please note that all four divisions included in this comparison would have agents working on investigations that
would not have seizure potential. The purpose of this chart was to compare each agency’s total agent resources
available and the net deposits to their department’s forfeiture fund.
                                                                                                           Page 16
                              The Criminal Investigation Division Can Take Steps
                              to Ensure Its Seizure Opportunities Are Maximized



                                                                                          Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective was to evaluate whether the CI Division adequately considered the seizure
of assets during its illegal source and narcotics investigations. Due to grand jury restrictions to
case file information, we could not conduct any testing to determine the accuracy and reliability
of the CIMIS data we received from the CI Division. In prior audits, our overall assessment has
been that CIMIS data are of undetermined reliability. However, in our opinion, using the data
did not weaken our analysis. To accomplish our objective, we:
I.         Evaluated the CI Division’s policies and procedures relating to the seizure of assets
           during its criminal investigations.
           A. Reviewed the Internal Revenue Manual and identified the criminal violations where
              the CI Division has the authority to seize and forfeit assets during criminal
              investigations.
           B. Interviewed CI Division Headquarters’ personnel and determined the role of the
              Warrants and Forfeiture section, the use of the CIMIS and Asset Forfeiture Tracking
              and Retrieval System, and the asset forfeiture training provided to new special agents.
           C. Interviewed Office of Chief Counsel personnel and determined their role in the asset
              forfeiture process and identified the criminal violations where the CI Division has the
              authority to seize and forfeit assets during investigations.
           D. Interviewed the Director, TEOAF, and gained his perspective on the CI Division’s
              Asset Forfeiture Program.
           E. Analyzed seizure-related statistics obtained from the CI Division and the TEOAF.
           F. Reviewed the asset forfeiture section of the 11 most recent CI Division Review and
              Program Evaluation 1 reports and identified recommendations related to our objective.
           G. Discussed with CI Division personnel the hiring of contractors to assist in the
              administration of the Asset Forfeiture Program.
II.        Evaluated whether the CI Division is fully utilizing its ability to seize assets during illegal
           source and narcotics investigations.
           A. Analyzed CIMIS data for all primary and subject criminal investigations containing a
              Title 18 or Title 31 statute violation that were initiated during the period

1
    See Appendix IV for a glossary of terms.
                                                                                                 Page 17
                             The Criminal Investigation Division Can Take Steps
                             to Ensure Its Seizure Opportunities Are Maximized



             October 1, 2006, through May 31, 2009. This included the identification of
             7,068 illegal source and narcotics investigations that contained a money laundering
             violation (18 U.S.C. Sections 1956 and 1957) or a bank structuring violation
             (31 U.S.C. Section 5324).
         B. Using the CIMIS, Review and Program Evaluation reports, and statistical data
            provided by the Warrants and Forfeiture section, we judgmentally selected 4 of the
            26 CI Division field offices for site visitations. These locations included the
            Oakland, California; St. Paul, Minnesota; 2 Nashville, Tennessee; and Houston, Texas,
            field offices. We used judgmental sampling since we did not intend to project any of
            our results.
         C. Interviewed field office management and the AFCs in the selected field offices and
            learned each office’s policies and procedures relating to their Asset Forfeiture
            Program.
         D. Interviewed a total of 30 available special agents in the selected field offices and
            determined if the field office environment allowed for a strong Asset Forfeiture
            Program.
         E. Interviewed a total of 16 available newer special agents, hired after January 1, 2005,
            in the selected field offices and determined if they had been adequately trained to
            pursue the seizure of assets during criminal investigations.
         F. Interviewed a total of 11 available Supervisory Special Agents in the selected field
            offices and determined the procedures utilized to ensure the seizure of assets are
            adequately considering during criminal investigations.
         G. Interviewed five Asset Forfeiture AUSAs with jurisdiction for the selected field
            offices (see Step II.B.) to gain their perspectives on the CI Division’s Asset Forfeiture
            Program.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: the CI Division’s policies,
procedures, and practices relating to the seizure of assets. We evaluated these controls by
interviewing CI Division and Department of Justice personnel, analyzing data related to seizures,
and reviewing the CI Division’s self assessments contained in its performance reports.

2
 We did not meet with the AFC or conduct Steps II.D., II.E, and II.G. at the St. Paul field office due to time
constraints.
                                                                                                             Page 18
                      The Criminal Investigation Division Can Take Steps
                      to Ensure Its Seizure Opportunities Are Maximized



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Marybeth H. Schumann, Director
Frank W. Jones, Director
Diana M. Tengesdal, Audit Manager
Michael J. Hillenbrand, Acting Audit Manager
Jeff K. Jones, Lead Auditor
Paul R. Baker, Senior Auditor
Gwendolyn M. Green, Senior Auditor




                                                                                      Page 19
                      The Criminal Investigation Division Can Take Steps
                      to Ensure Its Seizure Opportunities Are Maximized



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Director, Operations Policy and Support, Criminal Investigation Division SE:CI:OPS
Director, Strategy, Criminal Investigation Division SE:CI:S
Director, Warrants and Forfeiture, Criminal Investigation Division SE:C:OPS
Chief Counsel C
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Criminal Investigation Division SE:CI




                                                                                     Page 20
                        The Criminal Investigation Division Can Take Steps
                        to Ensure Its Seizure Opportunities Are Maximized



                                                                                 Appendix IV

                                Glossary of Terms

Asset Forfeiture Specialist – Contract employees who perform administrative tasks such as the
entry of data into the Asset Forfeiture Tracking and Retrieval System.
Asset Forfeiture Tracking and Retrieval System – A database that tracks assets seized by the
CI Division during investigations, reports on their status while in government custody, and
reports on the disposition of assets and distribution of proceeds from asset sales and other
disposal methods for forfeited assets.
Bank Secrecy Act – Legislation that requires certain businesses to submit reports of large-dollar
case transactions for use by law enforcement agencies in identifying terrorist funding, money
laundering, and other illegal activity.
Criminal Investigation Management Information System – A database used to track the
status and progress of criminal investigations and the time expended by special agents.
Criminal Tax Counsel – The section within IRS Chief Counsel that provides legal advice to the
CI Division throughout the criminal investigation process.
Department of Justice Asset Forfeiture Fund – A fund into which forfeited cash and the
proceeds of the sale of forfeited property are deposited. Participating agencies include the
Bureau of Alcohol, Tobacco, and Firearms; the Drug Enforcement Administration; and the
Federal Bureau of Investigation. The fund may be used for several purposes including
supporting criminal investigations.
Field Office – Offices within the four CI Division geographical areas throughout the country
with boundaries that range from a portion of a single State to inter-State areas. There were
26 CI Division field offices at the time of our audit.
Illegal Source – Crimes involving illegally earned income including crimes involving money
laundering, 18 U.S.C. Sections (§§) 1956 and 1957; sections of U.S.C. Title 31, Money and
Finance; and U.S.C. Title 26 violations investigated in conjunction with other agencies.
Internal Revenue Code – The codified collection of United States laws on income, estate and
gift, employment, and excise taxes, plus administrative and procedural provisions.
Money Laundering – The process of disguising criminal proceeds and may include the
movement of clean money through the United States with the intent to commit a crime in the
future (e.g., terrorism).



                                                                                          Page 21
                        The Criminal Investigation Division Can Take Steps
                        to Ensure Its Seizure Opportunities Are Maximized



Narcotics Investigation – Crimes involving tax and money laundering related to narcotics and
drug trafficking.
Primary Investigation – An evaluation of an allegation that an individual or entity is in
noncompliance with the Internal Revenue laws and related financial crimes.
Reverse Asset Sharing – The CI Division and other Department of the Treasury law
enforcement agencies routinely participate in joint investigations where the Department of
Justice law enforcement agency is the lead seizing agency. The lead seizing agency processes
the seizure from forfeiture to disposition. The CI Division can request an equitable share of any
forfeited property from its participation in the investigation.
Review and Program Evaluation – A report provided by a review team, consisting of
CI Division Office of Strategy and field personnel, that assesses CI Division operations,
managerial effectiveness, and ensures alignment with the CI Division Compliance Strategy and
IRS internal standards.
Special Agent – A law enforcement employee who investigates potential criminal violations of
the Internal Revenue laws and related financial crimes.
Subject Investigation – An investigation of an individual or entity alleged to be in
noncompliance with the laws enforced by the IRS and having prosecution potential.
Title 18 – U.S.C. Title 18, Crimes and Criminal Procedure. Various sections of Title 18 apply to
violations that are within the jurisdiction of the CI Division. Examples include § 286,
Conspiracy to Defraud the Government with Respect to Claims; § 287, False, Fictitious, or
Fraudulent Claims; § 371, Conspiracy to Commit Offense or to Defraud United States; and
§§ 1956 and 1957, Laundering of Monetary Instruments and Engaging in Monetary Transactions
in Property Derived from the Specified Unlawful Activity. The most common section
investigated under this statute is money laundering.
Title 31 – U.S.C. Title 31, Money and Finance. Several sections of Title 31 apply to violations
that are within the jurisdiction of the CI Division. Examples include § 5322, Criminal Penalties
(for willful violations of Title 31 sections) and § 5324, Structuring Transactions to Evade
Reporting Requirement Prohibited.
Treasury Executive Office for Asset Forfeiture – The agency that provides management
oversight of the Treasury Forfeiture Fund, which is the receipt account for the deposit of nontax
forfeitures made by member agencies including the CI Division.




                                                                                            Page 22
       The Criminal Investigation Division Can Take Steps
       to Ensure Its Seizure Opportunities Are Maximized



                                                   Appendix V

Management’s Response to the Draft Report




                                                            Page 23
The Criminal Investigation Division Can Take Steps
to Ensure Its Seizure Opportunities Are Maximized




                                                     Page 24
The Criminal Investigation Division Can Take Steps
to Ensure Its Seizure Opportunities Are Maximized




                                                     Page 25
The Criminal Investigation Division Can Take Steps
to Ensure Its Seizure Opportunities Are Maximized




                                                     Page 26
